E

2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com
Web Site
www.cocklelegalbriefs.com

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

No. 19-541
MICHAEL LAMBERT, an individual,
Petitioner,
V.

ESTATE OF KEVIN BROWN, by its
successor-in-interest Rebecca Brown;
and REBECCA BROWN,
Respondents.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I certify that the BRIEF IN OPPOSITION TO
PETITION FOR WRIT OF CERTIORARI in the above entitled case complies with the typeface
requirement of Supreme Court Rule 33.l(b), being prepared in New Century Schoolbook 12 point
for the text and 10 point for the footnotes, and this brief contains 8996 words, excluding the parts
that are exempted by Supreme Court Rule 33.l(d), as needed.

Subscribed and sworn to before me this 26th day of December, 2019.
I am duly authorized under the laws of the State of Nebraska to administer oaths.
PATRICIA BILLOTTE
General Notary
State of Nebraska
My Commission Expires Nov 24, 2020

Notary Public

Affi.ant

39096

